i
$

No.

OCTOBER 2019 TERM
Supreme Court, U.S.
FILED

IN THE

SEP 2 2 2020

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK

ELVERT S. BRISCOE-PETITIONER

vs.

GARY MOHR, ODRC DIRECTOR, ET AL.-RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

ELVERT S. BRISCOE, JR. #A368171
TOLEDO CORRECTIONAL INSTITUTION
2001 EAST CENTRAL AVENUE
TOLEDO, OHIO 43608

A
*

QUESTIONS PRESENTED

Liberty Interest
1.

Can an action by a prison disciplinary hearing that is
a violation of the First Amendment, Eighth Amendment,
or Equal Protection Clause give a liberty interest or
is "atypical and significant hardship"?

Sandin v. Connor, 515 U.S. 472 (1995).

Eighth Amendment
2.

When under "cloak" of an apparent security measure,
that leads to pain and injury, is argued excessive
force in "bad faith," or from another constitutional
violation, or was totally without penological justifi­
cation able to state a claim and survive dismissal
under 28 U.S.C. § 1915(e)(2)(B)?

3.

Can a claim of intentional guilt of a knowingly false
and retaliatory disciplinary charge, that leads to
punitive awkward specialized handcuffing for several
hours that causes pain and injury, that is argued
excessive force in "bad faith" or totally without
penological justification able to state a claim and
survive dismissal under 28 U.S.C. § 1915(e)(2)(B)?

Whitley v. Albers, 475 U.S. 312 (1982); Hudson v. McMillian,
503 U.S. 1 (1992); Hope v, Pelzer, 536 U.S, 730 (2002).

■si

/

rEqual Protection
4.

Is the Sixth Circuit's ruling that "similarly situated"
must be "similarly situated in all respects" and the
determination of a relevant factor contrary to or in
conflict with this Court or other Circuit Courts on
probative comparators?

Nordlinger v, Hahn, 505 U.S. 1 (1992); Miller-El v. Dretke,
545 U.S. 231 (2005).

5.

When a prison intentionally denies to investigate a
claim of a retaliatory set up by an inmate, but
investigates a claim of a set up by the retaliating
inmate for illegitimate reasons, is that action a
violation of equal protection?

6.

Can the Court clarify Olech class of one claims and
if "subjective ill will" "irrational and wholly
arbitrary," or a pretextual action?

Olech v. Willowbrook, 160 F.3d 386 (CA7 1998), aff'd other
grounds Willowbrook v. Olech, 528 U.S. 562 (2000).

t;

LIST OF PARTIES
Gary Mohr, ODRC Director;
Lashann Eppinger, Warden;
Keith Foley, Deputy Warden;
Jennifer Gillece, Deputy Warden;
Steve Weishar, Investigator;
Lt. Nicholaus Costello, Rules Infraction Board (RIB), Chairman;
Mark "Marcello" Hurayt, inmate #A523727;* and
John Does, inclusive.

*

Respondent Hurayt has not appeared after being served.

fi

TABLE OF CONTENTS

/

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

9

A.
B.
C.

10
13
29

Procedural Due Process
Equal Protection
Cruel and Unusual Punishment

38

CONCLUSION

INDEX TO APPENDICES
APPENDIX A

Order United States Court of Appeals for the Sixth

Circuit, Briscoe v. Mohr, et al •
APPENDIX B

t

No. 19-3306 (March 16, 2020)

Order & Opinion United States District Court for

the Northern District of Ohio, Briscoe v. Mohr, et al •

9

No 1:18CV02417 (March 8, 2019)
APPENDIX C

Order United States Court of Appeals for the Sixth

Circuit, Briscoe v. Mohr, et al • 9 No. 19-3306 (June 15, 2020)

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
Allah v. Seiverling, 229 F3d 200 (CA3 2000)

10

Ariz. Dream Act Coalition v. Brewer, 855 F3d 957 (CA9 2017)

15
32,36

Austin v. Wilkinson, 189 FS2d 719 (ND Ohio 2002)
Bartell v. Aurora Pub. Schs • > 263 F3d 1143 (CA10 2001 )

20

Cantu v. Jones, 293 F3d 839 (CAS 2002)

37

Ciechon v. City of Chicago, 686 F2d 511 (CA7 1982)

27

Cobb v. Pozzi, 363 F3d 89 (CA2 2003)

27

Cordi-Allen v. Conlon, 494 F3d 245 (CA1 2007)

27

Crawford-El v. Britton, 523 U.S. 574 (1998)

29

Curry v. Scott, 249 F3d 493 (CA6 2001)

37

Davidson v. Flynn, 32 F3d 27 (CA2 1994)

34,35

Davis v. Coakley, 802 F3d 128 (CA1 2015)

14-16,18,26,28
27

Demuria v. Hawkes, 328 F3d 704 (CA2 2003)
Deshaney v. Winnebago Cty. Dep't of Soc. Serv •
189 (1989)

t

489 U.S.

Duncan v. Louisiana, 391 U.S. 145 (1968)
Farmer v. Brennan, 511 U.S. 825 (1994)
Geinosky v. City of Chicago, 675 F3d 743 (CA7 2012)
Giarratano v. Johnson, 521 F3d 298 (CA4 2008)

9,32
9
37
27,28
21

Griffin Indus, v. Irvin, 496 F3d 1189 (CA11 2007)

15-17,23

Hilton v. City of Wheeling, 209 F3d 1005 (CA7 2000)

20,25,27

Hope v. Pelzer, 536 U.S. 730 (2002)
Hu v. City of New York, 927 F3d 81 (CA2 2019)
Hudson v. McMillian, 503 U.S. 1 (1992)

10,32,34,36
27
32,34,36

Humphries v. CBOCS West, Inc • 9 474 F3d 387 (CA7 2007),
aff'd CBOCS West v. Humphries, 533 U.S. 442 (2008)
15,16,23,25

TABLE OF AUTHORITIES, cont.
CASES

PAGE NUMBER

Jacobs v. City of Chicago, 215 F3d 758 (CA7 2003)

19,21

Jennings v. City of Stillwater, 383 F3d 1199 (CA10 2004) 15,16,23
Jones v. Bock, 549 U.S. 199 (2007)

19

Kimel v. Fla. Bd. of Regents, 528 U.S. 62 (2000)

18,24,28

King v. McCarty, 781 F3d 889 (CA7 2015)

35

Kopec v. Tate, 361 F3d 772 (CA3 2004)

35

Kostrezwa v. City of Troy, 247 F3d 633 (CA6 2001)

34

LeClair v. Saunders, 627 F2d 606 (CA2 1980)

19

Lindquist v. City of Pasadena, 669 F3d 225 (CA5 2012)

1 5-17

Lugar v. Edmondson Oil Co •

30,31

9

Marcelie v. Brown Cty. Corp •

457 U.S. 922 (1982)
9

680 F3d 887 (CA7 2012)

16,27

McCottrell v. White, 933 F3d 651 (CA7 2019)

34

McDonnell Douglass Corp. v. Green, 411 U.S. 792 (1973)
Miller-El v. Dretke, 545 U.S. 231 (2005)
Morrison v. Bd. of Trs. of Green Twp •

t

19-21

13,14,17,20,21,23,25

583 F3d 394 (CA6 2009)

Neilson v. D’Angelis, 409 F3d 100 (CA2 2005)

15-17

Mishiyama v. Dickson Cty • 9 814 F2d 277 (CA6 1987)
Nordlinger v. Hahn, 505 U.S. 1 (1992)

34

30

13,14,17,18,24,28

Olech v. Willowbrook, 160 F3d 386 (CA7 1998)

14,19,20,26,29

Perry v. Sinderman, 408 U.S. 593 (1972)

12

Philliphs v. Cty. of Allegheny, 515 F3d 224 (CA3 2008)

19

Ponte v. Real, 471 U.S. 497 (1985)
Quinn v. Bd. of Cty. Comm'rs for Queen Anne's Cty • 9
862 F3d 433 (CA4 2017)

11,21
14

TABLE OF AUTHORITIES CITED, cont.
CASES

PAGE NUMBER
18,23

Reed v. Reed, 404 U.S. 71 (1974)
Rhodes v. Chapman, 452 U.S. 337 (1981)

32

Robbins v. Becker, 794 F3d 988 (CA8 2015)

15

Robins v. Meecham, 60 F3d 1436 (CA9 1995)

35

Sandin v. Connor, 515 U.S. 472 (1995)

10

Shipp v. McMahon, 234 F3d 907 (CAS 2000)

27

Smith v. Mensinger, 293 F3d 641 (CA3 2002)

37

Squaw Valley Dev. Co. v. Goldberg, 375 F3d 936 (CA9 2004)

27

Staples v. Gerry, 923 F3d 7 (CA1 2019)

35

Startzell v. City of Philadelphia, 533 F3d 183 (CA3 2008)

14

State ex rel. Keith v. OAPA, 2014 Ohio 4270

12

State v. Lewis, 2000 Ohio 2011

11

Stepnes v. Ritschel, 663 F3d 952 (CA6 2011)

34

Turner v. Safely, 482 U.S. 78 (1987)
Tx. Dep't of Cmty. Affairs v. Burdine, 450
U.S. 248 (1981)
Warren v. City Athens, 411 F3d 697 (CA6 2005)
Whitley v. Albers, 475 U.S. 312 (1986)
Wilkinson v. Austin, 545 U.S. 209 (2005)
Willowbrook v. Olech, 528 U.S. 562 (2000)
Wolff v. McDonnell, 418 U.S. 539 (1974)

17,18,28
15,17,20,25
19,20
32,34,36
11-13
14-16,18,26,28
11,24,25

f.

IN THE
SUPREME COURT OP THE UNITED STATES
Petition for Writ of Certiorari
Petitoner respectfully prays that a Writ of Certiorari issue
to review the judgment and questions below.

OPINIONS BELOW
The opinion of the United States court of appeals appears
at Appendix A to the petition and is unpublished-Briscoe v. Mohr,
et al • f Case No. 19-3306,
The opinion of the United States district court appears at
Appendix B to the petition and is unpublished-Briscoe v. Mohr, et
al., Case No. 1:18CV02417,

JURISDICTION
The date on which the United States Court of Appeals decided
this case was March 16, 2020.
A timely petition for rehearing was denied by the United
States Court of Appeals on June 15, 2020, and a copy of the order
denying rehearing appears at Appendix C.
The jurisdiction of this Court is invoked under 28 U.S.C.
§1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S.C.A. First Amendment
Congress shall make no law respecting • • • or abridging
the freedom of speech • • • and to petition the Government for
a redress of grievances.
U.S.C.A. Eighth Amendment
• • • nor

cruel and unusual punishments inflicted.

U.S.C.A. Fourteenth Amendment
§ 1.

• • m

nor shall any State deprive any person of

life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
28 U.S.C. §1915(e)
* * *

(2)

Notwithstanding any filing fee, or any portion thereof,

that may have been paid, the court shall dismiss the case at any
time if the court determines that—
(B)

the action or appeal—

(i)

is frivolous or malicious;

(ii)

fails to state a claim on which relief may be

granted; or
(iii)

seeks monetary relief against a defendant who is

immune from such reliefs----

2

a

STATEMENT OF THE CASE
Elvert S. Briscoe, Jr • 9 an Ohio prisoner proceeding pro se,
Petitions for a Writ of Certiorari from the United States Court
of Appeals for the Sixth Circuit's judgment affirming in part
and vacation in part and remanding the district court's judgment
dismissing his complaint brought pursuant to 42 U.S.C. §1983,
sua sponte for failing to state a claim pursuant to 28 U.S.C.
S 1915(e)(2)(B).
In October 2018, Briscoe brought this action against the
Director of the Ohio Department of Rehabilitation and Correction
(ODRC), Gary Mohr; Warden of the Grafton Correctional Complex
(GCC),

*

Lashann Eppinger; Deputy Wardens Keith Foley and Jennifer

Gillece; Institutional Investigator, Steve Weishar; Rules Infrac­
tions Board Chairman, Nicholaus Costello, and Mark "Marcello"
Hurayt, inmate #A523727.

Briscoe's complaint originates from a

2016 Rules Infraction Board (RIB) decision finding him guilty of
attempting and planning an escape, which resulted in "black box"
restraints because of raised security status and transfer to a
maximum security prison.

Briscoe alleged that the charge was

based on false retaliatory allegation from Hurayt, Foley, Weishar,
Costello and Eppinger after Briscoe had reported Hurayt for
inappropriate uses of a flash drive, computers and for making
false reports.

Briscoe therefore claimed that: (1) his right to

due process of law was violated by the filing of a known false

* GCC has two prisons-Grafton Correctional Institution (GCI),
with level 2 inmates; and Grafton Reintergration Center (GRC),
with level 1 inmates for Re-entry programs.
3

retaliatory Cl charge against him, the denial of a fair and
impartial hearing, and the lack of evidence supporting his
disciplinary violation; (2) the disciplinary charge was filed
against him out of retaliation for his submitting complaints
concerning Hurayt; (3) his right to equal protection was violated
because the ODRC defendants conducted a thorough investigation
of the charge by Hurayt that Briscoe planted the flash drive with
"child porn" on it and then told ("set Him up"), then his claim
that Hurayt provided false information twice in retaliation ("set
Him up"), and that impinged fundamental rights of retaliation,
due process; and cruel and unusual punishment; and (4) his right
to be free from cruel and unusual punishment was violated when he
was restrained in punitive "black box" handcuffs for several
hours causing pain and injury, and when ODRC defendants failed to
protect him from Hurayt's Cl attack and each other.
On appeal, Briscoe argued that he had offered sufficient
allegations in the complaint to survive dismissal had reiterated
his due process, retaliation, equal protection and excessive
force claims.

The Sixth Circuit ruled Briscoe abandoned any

state-law claim for intentional infliction of emotional distress
citing Radvansky v. City of Olmsted Falls, 395 F.3d 291,311
(CA6 2005). [1]

[1]

The district court did not rule on the IIED state law claim
or other constitutional claims because of other claims
dismissed. (R.5 Opinion Page ID# 163-164 fn.1).

4

s
t

Facts
This case started out as a retaliatory assault and harm
by Mark "Marcello" Hurayt, a confidential informant/inmate, upon
Petitioner Elvert S. Briscoe, Jr.

It quickly metamorphosing into

multiple Constitutional violations by Hurayt and various Ohio
Department of Rehabilitation & Corrections (ODRC), Staff.
Briscoe, and three codefendants, were residents at the
Grafton Reintegration Center (GRC), part of the Grafton Correc­
tional Complex (GCC).

Three of the four were Program Aides (PA),

in various computer labs; and entrusted to train inmates and
aversee those labs. (R.1, Compl. J[ff3,13.14,1 6.18) All three PA's
reported to Staff of Hurayt having a flash drive.
In May 2016 Hurayt was transferred to GRC from Grafton
Correctional Institution (GCI), also part of GCC.

Hurayt went to

various computer labs and began a campaign of nefarious conduct.
(R.1, Compl. flfl14-18) Briscoe discovered Hurayt's legal work
on computers; overheard Hurayt say that Briscoe was connection
to print and counseled Hurayt.

Hurayt removed the legal work

by using a "usb stick," aka "flash" or "thumb" drive.

After

that Hurayt received a religious library software that he tried
to download and disabled that computer.

Briscoe went to his

supervisor and Hurayt was removed from that lab.

(R.1, Compl.

flfl16,17) Shortly before this, "child porn" or porn was found
on computers in GCI.

This was also reported on computers in

the Braille lab at GRC.
conduct.

PA's were told to watch for all illegal

(R.1, Compl. fl15)

AS

it

On July 11, 2016 a ODRC Staff who believed Hurayt had a
flash drive initiated a shakedown (Search), of Hurayt's bunk.
A flash drive and “Church CD" software were found.

Hurayt told

various Staff it was Briscoe's, “He got it from [Briscoe]i"
(R.1, Compl. fl19) Briscoe was searched and stripped.
was found.

Nothing

ODRC Staff approached and explained that Hurayt

said Briscoe gave him the flash drive.

It was immediately found

out the flash drive came from the GCI library.

Briscoe explained

to a Sergeant Andrew Wurstner that Hurayt was retaliating and
talked about sending a kite to Weishar.
to do so,

It was recommended

A kite dated July 11, 2016 was signed by Briscoe's

supervisor, a copy made and kept; and sent.

(R.1 Compl. ftfl20-

22,77)
On July 13, 2016 Briscoe and codefendants were placed under
investigation by Weishar for escape from Hurayt's statement.
When questioned by Weishar, Briscoe stated the retaliatory motive
of Hurayt and kite sent.

(R.1 Compl. ]]13) No escape contraband

was found.
During the last week of July 2016 there were two letters
wrote by Hurayt asking inmates to be a witness, to lie, and he
was willing to pay $300.00 dollars for this perjured testimony.
These letters were delivered to Major David Brown and Warden's
Assistant Adam Kastler; and the second to Case Manager Maria
Gentile that she e-mailed to Weishar on August 3rd.

Briscoe

went to Weishar's office on August 4th about the e-mail and
the July 11th kite that was shown received.

■5

(R.1 Compl. flf[27-

Av

30) Later from another later by Hurayt dated August 29, 2016,
Hurayt calls Foley who is out for foot surgery and pleads for
help.

Just when Hurayt "thought I would Lose. My friend" Foley

calls GCI to set up a lie detector test that he takes twice on
August 16, 2016.
On August 19, 2016 the ticket is against Hurayt was dropped
and an investigation to "why someone would want to 'set Him up I >1
is started by Gillece, Foley and others,
back to Restrictive Housing (RH).

Gillece moves Briscoe

On August 26-29, 2016 Weishar,

Foley, Gillece, Eppinger, Costello and Hurayt were investigating
and reviewing video of Hurayt's bunk and Ms. Long's office
because Hurayt made another allegation that "Duce and Vies"
placed the usb at his bunk and told Ms. Long it had "child porn"
on it.
Hurayt then tells the inmate that "today" (August 29, 2016),
Duce got a ticket for escape, all of them did and guess who is
the main witness?

Ironically, on this same day Weishar asks

Briscoe and codefendants do they want to "get this over with"
by taking CVSA tests.

(R.1 Compl. flfl32-40)

On September 1, 2016 Briscoe and codefendants took CVSAs.
On September 30, 2016 the results were given and on October 3,
2016 were charged with a Rule 31 attempting or planning an escape.
(R.1 Compl. JH[40-47,53-54)
On September 15, 2016 a codefendant was given Hurayt’s JP5
e-mails dated 9-3-16 to 9-12-16 to Weishar.
states, "RECAP." "I had to.

On 9-5-16, Hurayt

Because Brisco, Duce and Vic went to

7

Ms. Long and said Hurayt had a flashdrive." On 9-9-16, Hurayt
threatens Weishar to going to an outside source and telling
everything he has told him.

Weishar moves Briscoe and codefen-

dant back to Limited Privileged Housing (LPH), and Hurayt to RH.
(R. 1 Compl. 115148,50-52)
RIB hearings were held on October 7, 2016 and combined as
one record*

Camera footage, phone records, and Hurayt's letters

and e-mails were asked to be submitted by Weishar, but were not
turned over to the RIB.

(R.1 Compl. HK55,57-63,70)

There was

a split 1-1 vote and Eppinger intentionally appointed Foley to
cast the deadlock vote.

As a result, Briscoe was found guilty,

had security raised to maximum which caused him to be restrained
in special "black box" handcuffs that contorted his arms and
wrists that caused unnecessary and wanton pain and injury because
of the awkward position for several hours,

If not for the guilty

verdict and "discretionary override" for escape, "black box"
restraints would not have been required for transfer.

8

A

REASONS FOR GRANTING THE WRIT
Supreme Court Rule 10(a), states that a compelling reason
for this Court's discretionary review is if "a United States
court of appeals has entered a decision in conflict with the
decision of another United States court of appeals on the same
important matter, has decided an important federal question in
a way that conflicts with a decision by a state court of last
resort • • • as to call for an exercise of this Court's supervisory
power" or under Rule 10(c), " • • • a United States court of appeals
has decided an important question of federal law that has not
been, but should be, settled by this Court, or has decided an
important federal question in a way that conflicts with relevant
decisions of this Court."
Many of the rights guaranteed by the first eight Amendments
are substantive liberties protected through the procedural
protections of the Due Process Clause of the Fourteenth Amendment.
Duncan v, Louisiana, 391 U.S. 145, 148 (1968).

When the State by

the affirmative exercise of its power restrains an individual's
liberty that it renders him unable to care for himself, and
at the same time fails to provide basic reasonable safety it
transgresses substantive limits set by the Eighth Amendment.
The affirmative duty to protect arises from the limitation which
it has imposed on his freedom to act on his own behalf through
incarceration which is the "deprivation of liberty" triggering
the protections of the Due Process Clause.
County Dep't of

Deshaney v, Winnebago

Social Services. 489 U.S. 189, 200 (1989).

9

i

A. Procedural Due Process
Briscoe presented liberty claims and right to procedural
due process in a prison disciplinary hearing because the reasons
for the charge of escape, finding of guilt and transfer were
from retaliation, inmate/staff attack or harm, and equal protec­
tion without due process.

Sandin v, Conner, 515 U.S. 472, 487

n.11 (1995); Allah v, Seiverling, 229 F3d 220, 223-34 (CA3 2000).
The ruling conflicted with the ability to challenge arbitrary
actions under "the First and Eighth Amendments and Equal Protec­
tion Clause," and intentional disciplinary punishment taken
"totally without penological justification" that are an "atypical
and significant hardship." Hope v. Pelzer, 536 U.S. 730, 745
(2002).

Intentional discipline to no misconduct is torture and

not expected within the sentence.

Sandin, 515 U.S. at 485; Hope,

536 U.S. at 744 (sham disciplinary process).

Especially when

pain and injury results, unnecessary and wanton pain.
It is upon first impression that an important liberty claim
should be decided by this Court, but the Sixth Circuit's ruling
is really a conflict.

Briscoe claimed the right to procedural

due process in a prison disciplinary hearing when there is use
of a confidential informant or it could result in additional
criminal charges.

States may create liberty interests which are

protected by the Due Process Clause.

Sandin, 515 U.S. at 483-84.

These interests are freedom from restraint which excede the
sentence in an unexpected manner as to give rise to protection
by the Due Process Clause of its own force, nonetheless imposes

10

4

atypical and significant hardship on the inmate.

Id. at 484;

Wolff v. McDonnell, 418 U.S. 539, 556-58 (1974).
If a State has a policy or rule to allow confidential
informants for the purpose of charging prison misconduct, then
procedural due process is needed to protect an accused inmate
from false retaliatory charge by another inmate, and possibly
staff, that also "cloaks" an inmate/staff attack or harm under
cruel and unusual punishment by exploiting the disciplinary
process for their own ends.

Ponte v. Real. 471 U.S. 491, 497

(1985), citing Wolff, 418 U.S. at 563.

"Retaliation is much more

than a theoretical possibility." Wolff, 418 U.S. at 562.

Briscoe

reported Hurayt (the 01), for nefarious activities, then when
Hurayt is caught with.the usb and CD's he turns to the informant
status to harm him.

On a case by case determination, more is

needed then the Cl has given good information before, it is
this seasoned incorrigible inmate that becomes the must dangerous
to exploit the disciplinary process.
The Sixth Circuit rejected the need for procedural due
process in a hearing that could result in a outside criminal
prosecution and the evidence, paperwork and prison staff are
sufficient evidence to support the conviction.

State v, Lewis,

2000 Ohio 2011 at 3, 7-9; Ohio Revised Code (ORC) 2921.34(A)(1).
Under the Ohio sentencing scheme, a new conviction for escape
would be mandatory and a consecutive prison term that would stop
the original sentence and parole eligibility.
Austin, 545 U.S. 209, 215, 222 (2005).

11

Wilkinson v.

*
f V

The Sixth Circuit's ruling conflicts with the Ohio Supreme
Court's decision in State ex rel. Keith v. PAPA, 2014 Ohio 4270,
which held that an inmate has a "minimal due process expectation
of actual and accurate information of reports from the ODRC.
Id. at 23, 25.

This grant of "minimal due process" parallels

this Court’s decision in Wolff to the procedures set out in that
ruling.

This gives Ohio inmates at least a liberty or property

interest of accurate disciplinary reports in parole eligibility
hearings.

The Ohio Supreme Court has already determined the

"atypical and significant hardship" of guilt in a constitution­
ally deficient hearing:
Requiring the board to consider specific factors
to determine the parolee’s fitness for release would
not mean anything if the board is permitted to rely
on incorrect, and therefore irrelevant, information
about a particular candidate.
State ex rel. Keith, 2014 Ohio 4270 at 23; Perry v. Sindermann,
408 U.S. 593, 601 (1972).
The Sixth Circuit also rejected the need for procedural
due process in a disciplinary hearing for "escape" that results
in a non-discretionary placement at a maximum-security prison
with highly restrictive conditions for an indefinite period of
time.

Wilkinson, 545 U.S. at 213-14.

Once there is a finding

of guilt placement is automatic in one of three stretched across
the State making visits difficult.

There is no classification

committee review within 30-days, where one person can object and
end the process.

Annual review are started by "the top down"

by calling central office (being "red flag"), that they give the

12

i

l
recommendation to decrease or not.
who review the appeal.
isolation.

These are the same people

There is the same 23-hours of cell

An inmate may stillsee the parole board, but "if" a

parole is granted policy prevents him from leaving a maximum
prison.

Id. at 215-17, 223-24.

Moreover, inmates convicted

of escape have certain restrictions placed on them forever and
this status remains if the inmate reoffends twenty years later.
B.

Equal Protection

The Sixth Circuit's ruling to Briscoe's equal protection
claim needs review by Court for several reasons:

First, and

foremost, a definition and guidelines are needed for determi­
nation of "similarly situated" comparators and what determines a
relevant respect of a similar comparator.

The Sixth Circuit

ruled that Briscoe and Hurayt were not similarly situated "in all
respects." This determination means that comparators have to
be identical.

This is in conflict with this Court's holding

that comparators do not have to be "identical in all respects."
Miller-El v. Dretke. 545 U.S. 231, 247 (2005).

Accord Nordlinger

v, Hahn, 505 U.S. 1, 10 (1992) ("who are in all relevant respects
alike").

Also, the Circuit Courts decisions defining "similarly

situated" comparators and relevant aspects that agree with
Nordlinger and Miller-El conflict with the Sixth Circuit.

What

determines "relevant respects," "very similar," or directly
comparable?
Second, on certiorari in Willowbrook the Court did not
fully delve into the retaliatory, ill-will, vindictive action
ruling by the Seventh Circuit.

The Olech Court, and other
13

i
i

Circuits, hold that showing of an animus alone establishes a
equal protection violation and defeats rational basis.

Olech

v. Willowbrook, 160 F3d 386, 387 (CA7 1998), aff'd other grounds
Willowbrook v, Olech, 528 U.S. 562, 565 (2000).

Others are

confused on how to interpret Olech.
"Similarly situated11
In Miller-El, a review of a Equal Protection Batson claim
by this Court, when looking at non-black similarly situated
jurors there were found strong similarities as well as some
differences.

Miller-El, 545 U.S. at 247.

Justice Thomas

dissented, contending that there were no white
similarly situated because because,

II I It

panelists

tsjimilarly situated"

does not mean matching any one of several reasons. . .it means
matching all of them.
added).

« II

Id. at 545 U.S. at 247 n.6.

(ellipsis

The Court rejected that reasoning, stating that no

case has announced such a per se rule that no comparison is
probative unless the situation of the individuals compared are
identical in all respects and there was no reason to accept
such a rule.
cutters." Id.

Comparators "are not products of a set of cookie
Accord Nordlinger, 505 U.S. at 10.

Such a per se

rulle could leave Batson claims inoperable.
Every other Circuit Court of Appeals agrees that the inquiry
is some form of "alike in all relevant respects." Cf. Davis v.
Coakley, 802 F3d 128, 133 (CA1 2015); Startzell v. City of
Philadelphia, 533 F3d 183, 203 (CA3 2008) (same); Quinn v. Bd. of
County Comm'rs for Queen Anne's Cty., 862 F3d 433, 444 (CA4

14

I

2017) (same); Neilson v. D'Angelis, 409 F3d 100, 104 (CA2 2005)
("prima facie identical in all relevant factors"); Griffin Indus.
v, Irvin, 496 F3d 1189, 1204 (CA11 2007) (same); Humphries v.
CBOCS West, Inc • t 474 F3d 387, 404-05 (CA7 2007) ("all relevant
factors"), aff'd CBOCS, West v. Humphries, 553 U.S. 442 (2008);
Lindquist v. City of Pasadena, 669 F3d 225,234 (CA5 2012) (same);
Ariz. Dream Act Coalition v. Brewer, 855 F3d 957, 966 (CA9 2017)
(same); Jennings v. City of Stillwater, 383 F3d 1199, 1213-14
(CA10 2004) (same); Robbins v. Becker, 794 F3d 988, 996 (CA8
2015)(identical or directly comparable in all material respects).
In affirming the Seventh Circuit's "class of one" "similarly
situated" comparison the Court did not search for all respects
of homeowners who wanted to have their homes connected to Willowbrook's water supply,

It was only looked at that others were

demanded a 15-foot easement, not the 33-foot demanded of the
Olechs.

Willowbrook. 528 U.S. at 565.

of 18-feet was enough for a claim.

Id.

The intentional demand
This Court did not

compare lot sizes, if the connection was at different pints on
the lots, or any other respect.

Only that the Olechs claimed

intentional different treatment from others similarly situated
and there was no rational basis.

Id. at 564.

"The burden of establishing a prima facie case of disparate
treatment is not onerous.— Tx. Dep't. of Cmty. Affairs v. Burdine,
450 U.S. 248, 253 (1981).

But, in the wake of Willowbrook lower

courts and commentators have struggled defining the contours

t „ >• •

of class-of-one cases, even malice or ill-will must be present in

15

I
4
Jennings, 383 F3d at 1210-11 n.4

addition to arbitrariness.

(collecting cases); Marcelle v. Brown County Corp., 680 F3d 887,
891-93 (en banc 5-5) (same).
Circuits that have defined similarity and relevant respects
agree that there is no "magic formula," but the inquiry is a
flexible one that considers "all relevant factors, the number
of which depends on the context of the case." Humphries, 474
F3d at 405.

In other words, the inquiry simply asks whether

there are sufficient commonalities on the key variables that
would allow a jury to reach an inference of discrimination or
retaliation.

Id.

See also Davis, 802 F3d at 132-33; Neilson,

409 F3d at 105; Lindquist, 669 F3d at 233-34; Jennings, 383 F3d
at 1214; Griffin, 496 F3d at 1203.
Briscoe asks this Court to define similarly situated and
relevant respects; to incorporate the "subjective ill will into
the class of one equal protection, clarifying "Olech claims"
and apply a "burden shifting" type of test to the class of one
equal protection claims.

This will clarify and bring conformity

to the courts on Olech and any equal protection claim when
"similarly situated" is argued.

This is not a new test or burden

of proof that is not already in some formed used by this Court
and or the Circuits on equal protection based claims.
As always, a successful prima facie "class of one" claim
alleges:

(1) Plaintiff has been intentionally treated different

from others similarly situated; and (2) that they is no rational
basis for the difference in treatment.

16

Willowbrook, at 564.

Definitions:
A comparator is "similarly situated" when they are "alike
in all relevant respects.

Nordlinger, 505 U.S. at 10; Miller-El,

545 U.S. at 247 n.6 (not identical).

The similarly situated

inquiry is a flexible one that considers "all relevant factors,
the number of which depends on the context of the case."
j

Humphries, 474 F3d at 405; Lindquist, 669 F3d at 234.

This is

a common sense inquiry, not a magic formula, that simply asks
whether there are sufficient commonalities by the preponderance
of key variables that would allow a jury to reach an inference of
discrimination or retaliation.

Humphries, 474 F3d at 405.

See also Neilson, 409 F3d at 105; Davis, 802 F3d at 133.
An individual is "similarly situated" when "a prudent person,
looking objectively at the incidents, would think them roughly
equivalent." Davis, 802 F3d at 133.

Apples can not be compared

to oranges, but an orange and apple has to be on the table
together to be compared.
Relevant factors are case-specific and requires considera­
tion of the full variety of objective factors that an objectively
reasonable decisionmaker would have found relevant in making the
challenged decision.
at 1203.

Lindquist, 669 F3d at 234; Griffin, 496 F3d

These relevant factors have to be legitimate, would

apply at the time of the comparison, and are not pretextual.
Burdine, 450 U.S. at 253; Turner v. Safely, 482 U.S. 78, 89
t1987) (“valid, rational connection • • • legitimate governmental
interest put forward to justify it").

17

It has to be one that

advances the objective of the government's mission or goal.
Nordlinger,505 U.S. at 11;Reed v. Reed, 404 U.S. 71,76-77 (1974).
Rational basis:
An ration basis is a difference in treatment not based on
impermissible considerations such as race, religion, intent to
inhibit or punish the exercise of constitutional rights, or
malicious or bad faith intent to injure a person.

Davis, 802

F3d at 132-33 (cites omit).
The "rational basis" test means that "the varying treatment
of different groups or persons is so unrelated to the achievement
of any combination of legitimate purposes that [the court] can
only conclude that the [government's] actions were irrational."
Kimmel v. Fla. Bd. of Regents, 528 U.S. 62, 84 (2000) (inner
quotation and cite omit); Nordlinger, 505 U.S. at 10 (classifi­
cation rationally further a legitimate state interest); Turner,
482 U.S. at 89-90 (logical connection between asserted goal; and
"the governmental objective must be a legitimate and neutral
one"); Reed, 404 U.S. at 75-77 (denied different treatment on
basis of criteria wholly unrelated to objective).
Once the plaintiff has specifically plead one or more
similar comparators alike in all relevant respects that would
or should apply in the context of the case and then has plead
no rational basis for the-difference in treatment under the
circumstances by direct circumstantial evidence, a prima facie
case is stated,

Willowbrook, 528 U.S. at 565.

A "class of one"

plaintiff may demonstrate that a government action lacks rational

18

in one of two ways:

wither by "negativing every conceivable

basis which might support" the government action or by demon­
strating that the challenged government action was motivated by
ill-will.

Warren v. City of Athens, 411 F3d 697, 711 (CA6 2005);

LeClair v. Saunders, 627 F2d 606, 609-10 (CA2 1980); Olech, 160
F3d at 387.
T

j

The burden must then shift to the defendant to articulate

some legitimate, nondiscriminatory reason for the difference
in treatment or other relevant factor that advances the objective
of the government's mission.

McDonnell Douglass Corp. v. Green,

411 U.S. 792, 802-03 (1973).

If the defendant has presented

some legitimate, nondiscriminatory reason or another relevant
respect it has sufficed to discharge its burden of proof at
this stage and to meet plaintiff's prima facie case.

Id.

The inquiry must not end here.
Whether a particular ground for opposing a claim may be
the basis for dismissal for failure to state a claim depends
on whether the allegations in the complaint suffice to establish
that ground, not on the nature of the ground in the abstract.
Jones v. Bock. 549 O.S. 199, 215 (2007).

Just as in pro-se

in forma pauperis cases, a reviewing court must allow liberal
pleading, and an amended complaint, this in additional to an
reply brief before any dismissal under 28 U.S.C, §1915 or Rule
12(b)(6) for lack of similarly situated or rational basis.
Philliphs v. County of Allegheny. 515 F3d 224, 246 (CA3 2008)
remand to amend); Jacobs v. City of Chicage, 215 F3d 758, 765
n.3 (CA7 2003).
19

The plaintiff must be given a fair opportunity to show
that the defendant's or court's stated reason was pretextual,
not a relevant aspect or some other illegitimate reason.
McDonnell, 411 U.S. at 804-05; Burdine, 450 U.S. at 253.
is why the inquiry must not end above.

That

Jones makes clear that

other allegations or facts in the complaint can nullify that
ground.

That is why the ground cannot be looked at in the

abstract.
Relevant evidence of showing a pretext is disparate treat­
ment of similarly situated parties, direct or circumstantial
evidence of impermissible or illegitimate action; or direct or
circumstantial evidence of animus.

Olech, 160 F3d at 387; Davis,

802 F3d at 132-33; Warren, 411 F3d at 711; Bartell v. Aurora
Pub. Schs • 9 263 F3d 1143, 1149 (CA10 2001) (animus); Hilton v.
City of Wheeling, 209 F3d 1005, 1008 (CA7 2000) (government
actions motivated by personal malice unrelated to defendant's
official duties).
Other evidence that may be relevant to any showing of pretext
includes facts as to defendant's prior treatment of plaintiff;
reaction to plaintiff's prior similar legitimate activities;
defendant's failure to engage in any meaningful examinations on
a subject alleged it is concerned about and "how reasonable, or
how improbable, the explanations are;—and by whether the
proffered rational has some basis in accepted" strategy of
objective or goal.

McDonnell, 411 U.S. at 804; Miller-El, 545

U.S. at 246-47.

20

4
Outside "[p]roof that the defendant's explanation is
unworthy of credence is simply one form of circumstantial
evidence that is probative of intentional discrimination, and
it may be quite persuasive." Miller-El, 545 U.S. at 241 (cite
omit)
If the plaintiff has plead a pretext, he or she must be
given a full and fair opportuntiy to demonstrate by competent
evidence that the presumptively valid reasons were in fact a
cover up for a discriminatory decision.
at 805.

McDonnell, 411 U.S.

Much more so, i the pro-se, prison inmate context given

the significant limitations on an inmate's rights, to place
the burden of proof on the inmate to show why the actions of
prison officials were arbitrary or capricious, by going further
and adding another weight to an already heavily weighted scale
by requiring an inmate to produce evidence, or every defense,
which he will rarely be in possession, and of which the prison
will almost always possess in the pleading stage is unwarranted.
Ponte, 471 U.S. at 499; Jacobs, 215 F3d at 765 n.3; Giarratano
v. Johnson, 521 F3d 298, 303 (CA4 2008).
Case at bar
In applying the test to the instant case, Briscoe’s equal
protection claim was the Defendants' objective, its goal or
legitimate penological interest of Hurayt's investigation was
to prove if the allegation by Hurayt that someone "set Him up"
by placing a flash drive with child porn on it at his bunk area
and then going to Ms. Long reporting he had it.

21

Hurayt accused

I

"Brisco, Dussell and Vic" of doing this scheme.

Defendants'

Foley, Gillece, Weishar, Eppinger, Costello, and Hurayt then
looked at video of Hurayt's bunk and questioned Ms. Long about
the reporting while checking video of her office.
The Sixth Circuit held that Briscoe and Hurayt were not
similarly situated "in all respects, as Briscoe's charge involved
a risk to prison security through an escape plan, whereas
Hurayt's charge involved the possession of a contraband flash
drive, and Briscoe had accused him of merely making a false
report."
Briscoe and Hurayt were inmates at Grafton, housed in the
special housing unit under investigation for an alleged major
misconduct-uncharged, and presenting a claim of being set up
for the alleged violation.

These are the "relevant respects"

that shows similarly situated for both to have a investigation
of a set up.
Briscoe alleged that Defendants Foley, Gillece, Weishar,
Eppinger, and Costello failed to investigate his claim that
Hurayt "set Him up" about a plan to escape in retaliation for
Briscoe reporting that Hurayt was using a flash drive and CD
software at the Media Studio; to help the "friend" get out of
being criminally charged for the usb with "child porn" on it;
charge of false information to law enforcement about escape
and usb; threats by Hurayt to report malfeasance; and being
"duped" about escape exposure,

Distinction by classes of charge

in this context is irrational andv’re levant.

22

The criteria of inmates under inbestigation for escape
that claim that an someone “set Him up" cannot have the benefit
Of an administrative investigation for the objective to determine
if the inmate was set up by an inmate or staff, while allowing
investigations to any other inmate for the determination if
someone “set Him up" for a "contraband" flash drive is arbitrary
and unreasonable.

Reed, 404 U.S. at 76-77.

The different allegations would not be a relevant factor
by an objectively reasonable governmental decisonmaker in the
context of this case for several reasons.

Griffin, 496 F3d

at 1203; Humphries, 474 F3d at 405; Jennings, 383 F3d at 1214.
First, at the time of the challenged decision no one was
charged with misconduct.

Second, this was a unreasonable

investigation strategy and improbable decision at the time.
Miller-El, 545 U.S. at 247 (cite omit).

Known facts were:

(i) Braille lab was closed for porno on computers; (ii) Hurayt
had lied about sent to work at the One Stop lab and suspected
of having a flash drive; (iii) Briscoe reported Hurayt had usb,
tried to download religious software and removed from the Media
Studio lab; (iv) Briscoe had warned by a "kite" of a impending
second retaliatory attack by Hurayt two days earlier; (v) the
flash drive was traced back to where Hurayt was just transferred
from; (vi) Hurayt's property and ticket included "Church" CD
software; and (vii) Hurayt had already wrote two letters asking
inmates to testify (perjure), that they placed the flash drive
at his bunk, which would be unnecessary if Brisco, Duce and Vic
"set Him up."
23

\

Third, Briscoe and two other codefendants were program aides
in each computer lab Hurayt was doing his nefarious conduct, all
four accused by Hurayt knew he had the usb and all four did not
even associate.

Finally, Hurayt only made this allegation after

being found with a flash drive on the same day of a promising
parole hearing and in segregation,

These facts show that the

classification of. planning an escape "could not reasonably be
conceived to be true by the governmental decisionmaker." Kimel,
528 U.S. at 84 (cites omit); Ponte, 471 U.S. at 497 (exploit
disciplinary process for "snitching"); Wolff, 418 U.S. at 562
("retaliation much more than a theoretical possibility");
Nordlinger, 505 U.S. at 11 (relationship of classification to
its goal).
Pretextual
Foley, Gillece, Weishar, Eppinger and Costello's pretextual
allegation of a plan to escape, shoddy investigation and "set up"
by Hurayt would allow a jury to reach an inference of discrimi­
nation or retaliation.
The pretextual use of an alleged escape and shoddy investi­
gation was sufficient because sufficient other evidence by
letters and e-mails from Hurayt showed Briscoe was set up by
him in retaliation for the reporting of the flash drive and
downloading software, nfarious conduct in the Media Studio.

The

July 11, 2016 kite was evidence that Briscoe was afraid of
another attack that happened two days later and this was stated
to Weishar when asked did he know why he was under investigation.

24

I

"Hurayt and that usb stick and the kite I sent," and "Whatever,
it has to do with Hurayt and that usb stick." Humphries, 474 F3d
at 407; Burdine, 450 U.S. at 253 (preponderance of evidence that
reasons were a pretext); McDonnell, 411 U.S. at 804 (defendant's
reaction to plaintiff's legitimate civil rights activities).
Other evidence to show a pretext was Gillece's action on
August 19, 2016 by placing Briscoe and Collins back in RH, the
same day of starting the investigation on who "set Him up" and
they were riding out (being transferred).

The investigation only

happened after Hurayt made several calls to Foley pleading for
help about the flash drive.

When Hurayt thought he would lose,

his "friend" called the prison and starts the ball rolling.
A friendship has nothing to do with the duties of Foley's
position.

Hilton, 209 F3d at 1008.

During the review of video

and the explaining of events in Hurayt's letter, there is never
any meaningful talk about the escape.
246.

Miller-El, 545 U.S. at

This is proof that any explanation is unworthy of credence

and quite persuasive.

Id. at 241.

They called Legal to see

if they will back them.
Animus or ill-will
Briscoe asks this Court to rule that the theory of "subjec­
tive ill will," commonly know as animus or ill will, supports a
Equal Protection claim ~and~“the Sixth Circuit 's ruling is in
conflict with the majority Circuit Court of Appeals on a Olech
"class of one" claim.
Under this theory Briscoe argued that he was denied equal

25

protection during the investigation and hearing by the failure
to investigate his claim of a set up and impartial juror by
a civil conspiracy.

Defendants had a friendship with Hurayt

that provided the animus to charge Briscoe with a illegitimate
charge of escape for the reporting that Hurayt had a flash drive
with child porn.

Then when it was found out that Hurayt was

lying about the flash drive being planted and the escape, they
made sure that a guilty verdict was made by appointing Foley for
a tie break vote.

This was to prevent Briscoe from exposing the

other animuses of being "duped" about the escape and other
malfeasances.
The foundation for the "vindictive" equal protection claim
is said to have its roots in Olech v. Willowbrook after this
Court's per curiam opinion affirming the Seventh Circuit's ruling.
The Seventh Circuit made clear that this remedy was provided by
the Equal Protection Clause long before where a "powerful public
official picked on a person out of sheer vindictiveness." It can
be invoked by a person who can prove that an "action taken by
the state, whether in the form of prosecution or otherwise, was
a spiteful effort to 'get' him for reasons wholly unrelated to
any legitimate state objective." Olech, 160 F3d at 387 (cites
omit).

This Court did not reach this alternative theory of

"subjective ill will." Willowbrook, 528 U.S. at 565.
To state a prima facie case under this claim, similarly
situated proof can be relaxed.

Only if the plaintiff presents

evidence of "personal malice and 'bad faith' retaliation."
*.

26

Cordi-Allen v. Conlon, 494 F3d 245, 251 (CA1 2007); Hu v. City of
New York, 927 F3d 81, 90-92 (CA2 2019) (malice motivated),

See

also Squaw Valley Dev, Co. v. Goldberg, 375 F3d 936, 945, 947
(CA9 2004) (finding no similarly situated comparator, but under
class of one ill will found); Geinosky v. City of Chicago, 675
F3d 743, 748 (CA7 2012) (no comparator with 28 bogus tickets).
Briscoe presented a letter by Hurayt that details after
pleading for help to out of the usb charge how his "friend"
Foley comes to the rescue.

If the reasons not to investigate

Briscoe's claim of a set up was because of reporting Foley's
"friend" had a flash drive, or they thought Briscoe planted the
usb this is a personal motivation not related to their duties.
Failure to investigate a complaint or provide police protection
because of a "friendship" states a class of one claim.

Marcelle,

680 F3d at 889; Hilton, 209 F3d at 1007; Shipp v. McMahon, 234
F3d 907, 916-17 (CA5 2000); Demuria v. Hawkes, 328 F3d 704,
707 (CA2 2003).

Defendants discipline on a plaintiff based on

a belief engaged in unlawful action makes the subjective belief
unwarranted and irrational treatment.

Cobb v. Pozzi, 363 F3d 89,

110 (CA2 2003).
Then on September 15, 2016 e-mails from Hurayt to V7eishar
are discovered that evidence a conspiracy to cover up being
"duped" about the escape and malfeasance.

A desire to find a

scapegoat in order to avoid adverse publicity and the threat of
a lawsuit is an actionable reason unrelated to duties.
v. City of Chicago, 686 F2d 511, 524 (CA7 1982).

27

Ciechon

Knowing that

Briscoe was grieving and wanting Hurayt charged, he was the
scapegoat by continuing t charge the "bogus" escape,

The key

evidence is the alleged facts provided by Hurayt and confirmed
by other corroborating evidence of no investigation of Briscoe's
set up claim; bed moves; the kites; no talk of escape in Hurayt*s
letter; and when the RIB hearing was tied, Eppinger intentionally
appointed Foley for the tie break vote.

Geinosky, 675 F3d at

748-49 (bogus charges by several officers in same unit).
No matter what burden of pleading Briscoe was required to
meet, the Sixth Circuit's ruling was in conflict with this
Court's and other Circuit's class of one decisions in Willowbrook
v. Olech and Nordlinger that similarly situated means "in all
relevant respects alike." If the investigation started on August
19, 2016 for Hurayt was not to see who "set Him up," but for the
charge of a flash drive, the escape charge could then be a
legitimate, security interest relevant to the government's
decision.

Still, a reasonable decisionmaker could exclude that

factor because Briscoe argued that it was a retaliatory false
charge for reporting Hurayt's nefarious activity and both were
similarly major misconduct.
The escape charge was pretextual to help a "friend." Both
are not a "legitimate penological interests." Turner, 482 U.S.
at 89; Kimel, 528 U.S. at'-84 (facts based on-untrue).
In the alternative, Briscoe asks that a Olech class of
one "subjective ill will" states a claim for Equal Protection,
that an animus can relax similarly situated proof and can over-

28

come the rational basis; and the facts presented in the complaint
if proved by competent evidence presents a triable jury issue.
Olech, 160 F3d at 387-88 (cites omit).
Can there ever be a rational basis to a vindictive action?
An action motivated by ill will for the exercise of a First
Amendment right is "irrational and wholly arbitrary." Olech, 160
Such retaliation inhibits the exercise of the

F3d at 387-88.

protected right, an "unconstitutional condition" demanded for
receipt of a government provided benefit.

Crawford-El v. Britton,

523 U.S. 574, 588 n.10 (1998).
C.

Cruel and Unusual Punishment

This Court must review the Eighth Amendment claim by the
Petitioner in the Sixth Circuit because the ruling is in conflict
with decisions in Whitley v. Albers; Hudson v, McMillian; and
Hope v. Pelzer.

The Sixth Circuit's ruling allows a prison to

exact intentional wanton pain and injury that is challenged in
"bad faith".

The denial allows a prison security measure taken

"totally without penological justification" and in "bad faith"
unchallengable.

These matters are given difference, but it will

not insulate from review actions taken in "bad faith."
Briscoe raised a claim that the contorting of his arms and
wrists in "black box" restraints that caused pain and injuries
were excessive force in "bad faith"—and- done "totally without
penological justification" when State actors Foley, Gillece,
Weishar, Eppinger, Costello and Hurayt used a State policy and

29

practice of a confidential informant and a sham disciplinary
hearing to facilitate a false escape plot in retaliation for
reporting misconduct.

This contorting lead to surgery to repair

the injuries.
Briscoe argued that Hurayt's false retaliatory escape story
started the actions in motion and when Defendants Foley, Gillece,
Weishar, Eppinger and Costello was told in e-mails from Hurayt
that the reason he told the lie was because Briscoe, Duce and Vic
went to Ms. Long and said Hurayt had a flash drive, these same
people conspired to convict Briscoe of a knowingly false charge
that lead to the transfer and punitive "black box" restraints.
The acts were malicious and intentional by Eppinger appointing
Foley to the hearing when a split 1-1 verdict was cast.

If not

for the guilty verdict, Briscoe would not have been subject to
"black box" restraints.

Therefore, because injuries and pain

would not have happened without these actions, Briscoe was
subjected to the "unnecessary and wanton inflictions of pain"
that were "totally without penological justification".
As a preliminary matter, Hurayt is a state actor by the
exercise of some right or privilege created by the State or
by a rule of conduct imposed by the State or by a person for
whom the State is responsible, "is a state official, because
he has acted together with or has obtained significant aid from
state officials, or because his conduct is otherwise chargeable
to the State." Lugar v. Edmondson Oil Co • f 457 U.S. 922, 937
(1982); Mishiyama v. Dickson Cty

30

814 F2d 277, 279-81 (CA6 1987)

(en banc).

II I

Private persons, jointly engaged with state

officials in prohibited action, are acting "under color" of
law[.]

• it

Lugar, 457 U.S. at 941 (cites omit) (insert added).

The Sixth Circuit held:
In this case, Briscoe's complaint provides the
very penological reasons that the officers
detained him-because a fellow inmate said that
Briscoe was planning to escape and because the
prison needed to transport him to another
prison. Of course, Briscoe alleged that the
inmate lied about the escape plan. But the
fact that inmate may have lied does not trans­
late the handcuffing or higher security
decision into cruel and unusual punishment.
Without more, Briscoe has not stated an
Eighth Amendment claim.
Briscoe v. Mohr, et al • r Case No. 19-3306, pg. 5 (slip opinion).
But, immediately after that ruled on the retaliation claim
that the allegations of defendants bringing a false charge of
escape for reporting Hurayt had a flash drive and making false
accusations against him stated a claim.

This action was taken

because of the friendship; to prevent Briscoe from testifying
about Hurayt's conduct and their malfeasance; to save face from
being "duped" about the escape; and to prevent Hurayt's threats
to expose malfeasance.
e-mails by Hurayt.

This could be proved by letters and

Briscoe v. Mohr, et al • 9 Case No 19-3306,

pg. 5 (slip opinion).
Bad faith
An Eighth Amendment claim can be made although the punish­
ment is "not physically barbarous, 'involve the unnecessary and
wanton infliction of pain.

31

• ii

The unnecessary and wanton inflic-

31

tions of pain are those "totally without penological justifi­
cation’." Rhodes v. Chapman, 452 U.S. 337, 346 (1981).

Conduct

not for the purposes of punishment must involve more than
ordinary lack of due care, "it is obduracy and wantoness, not
inadvertence or error in good faith, that characterize conduct
prohibited." Whitley v. Albers, 475 U.S. 312, 319 (1986).
If force is applied it has to be in an effort to maintain or
restore discipline or violative if done maliciously and sadisti­
cally for the very purpose of causing harm.

Whitley, 475 U.S.

at 320; Hudson v. McMillian, 503 U.S. 1, 6-7 (1992); Hope v,
Pelzer, 536 U.S. 730, 745 (2002) ("rail" improper punishment
when done of necessity, but as punishment for prior conduct).
Cruel and unusual draws "its meaning from the evolving
standards of decency" that an inmate must rely on prison
authorities to treat needs or needs will not be met.
U.S. at 347; Deshaney, 489 U.S. at 200.

Rhodes, 452

"When prison officials

maliciously and sadistically use force to cause harm,contemporary
standards of decency always are violated." Hudson, 503 U.S. at 9.
If any safety concern had long since abated or in a clear
lack of an emergency situation prison officials knowingly
subjects an inmate to substantial risk of physical harm, to
unnecessary pain caused by the handcuffs and restricted position
of confinement for a long period or created a risk of particular
discomfort, this punitive treatment amounts to gratuitous
infliction of "wanton and unnecessary" pain.

Hope, 536 U.S. at

738; Austin v. Wilkinson, 189 FS2d 719, 725 (ND Ohio 2002)
(uncomfortable "black box" that contorted wrists).

32

Most Circuits have held the right not to be handcuffed in an
objectively unreasonable manner.

This is a clearly established

right t be free from excessive force, including 'excessively
forceful handcuffing.1
Kostrzewa v. City of Troy, 247 F3d 633, 641 (CA6 2001 ); Stepnes
v. Ritschel, 663 F3d 952, 961 (CA6 2011).

Ironically, the Sixth

Circuit even supports this view on transporting.

Morrison v. Bd.

of Trs, of Green Twp., 583 F3d 394, 403 (CA6 2009).
When prison officials stand accused of using excessive
force the core judicial inquiry is whether force was applied in
a good-faith effort to maintain or restore discipline, or
maliciously and sadistically to cause harm.

Hudson,503 U.S. at

6-7, citing Whitley, 475 U.S. at 320; Davidson v. Flynn, 32 F3d
27, 30 (CA2 1994).

Even though prisons should be accorded wide-

ranging deference in discipline and security, that deference
"does not insulate from review actions taken in bad faith and for
no legitimate purpose." Whitley, 475 U.S. at 321-22 (cites omit)
(emphasis added); Hudson, 503 U.S. at 6; Hope, 536 U.S. at 738.
((clear lack of emergency unreasonable for restricted restraints).
Where there is evidence that appears to contradict the
claims of good faith court may not simply credit deference.
McCottrell v. White, 933 F3d 651, 671 (CA7 2019).
The Second Circuit Court of Appeals held that an excessive
force claim was stated, and reversed the dismissal of the
district court's adoption of the magistrate's recommendation.
The magistrate judge erred in deeming the complaint limited to

34

whether there was need for mechanical restraints.

The claim is

not based on the use of handcuffs, but on their deliberate and
improperly motivated application so tightly as to injure.
Davidson v. Flynn, 32 F3d at 30.

The defendants argued that

because plaintiff was an escape risk, tight mechanical restraints
would have been used absence of improper motive.

Id. at 30.

The

material questions of fact were plaintiff’s claims the restraints
placed on him were in excess of what was necessary under the
circumstances, beyond what was normally used when transporting;
and whether the "too tight handcuffing as to cause severe pain
and permanent injury was the officers use of excessive force in
retaliation for litigiousness." Id. at 30.

These actions were

deemed bad faith.
There are other Circuits that have ruled that some kind of
unreasonable manner of handcuffing when the defendant has stated
a legitimate reason was bad faith include the First, Third,
Seventh and Ninth.

Staples v. Gerry, 923 F3d 7, 13-14 (CA1

2019); Kopec v. Tate, 361 F3d 772, 777 (CA3 2004); Robins v.
Meecham, 60 F3d 1436, 1440 (CA9 1995) (an intent to punish is
enough to establish a cause of action).
A prisoner states a claim under the Eighth Amendment when
he plausibly alleges that conduct in question "was motivated by a
desire to harass or humiliate rather than by a legitimate justi­
fication, such as need for order and security." King v. McCarty,
781 F3d 889, 897 (CA7 2015).
Briscoe states a Eighth Amendment claim on Foley, Gillece,

35

Weishar, Eppinger, Costello, Mohr and Hurayt, they knew that
there was a lack of an emergency situation, but treated Briscoe
wantonly by an improper punishment for the prior conduct of
reporting Hurayt's misconduct, a protected action.
totally without penological justification.

This was

Hope, 536 U.S. at
Id. at

745.

This was accomplished by a sham misconduct hearing.

744.

The sham hearing lead to "black box" handcuffing, which are

a specially designed metal bar designated for shackling that
are only used for transport of maximum level inmates, that
contort the wrist in a awkward restraint.

Id. at 742.

Defen-

dants knew that the charge and finding of guilt to escape would
result in both a non-discretionary transfer to maximum and the
"black box" restraints.

Austin v. Wilkinson, 189 FS2d at 725

(uncomfortable "black box" that contorts wrists).
Briscoe has plead all factors to show that the force applied
was unreasonable.

There was no need of force by "black box"

since Defendants knew the escape charge was in retaliation.
Briscoe needed surgery for nerve damage-golfer's elbow,

Defen-

dants knew that maximum level was guaranteed from escape charge,
"black box" would be used, and causes injury,

Defendants could

have transferred Briscoe under normal conditions by regular
"lateral" transfer.

Whitley, 475 U.S. at 321; Hudson, 503 U.S.

at 7.
Failure to protect/intervene
The acts of the Defendants above show that they failed
to protect Briscoe from Hurayt and the conspiracy from each

36

other.

An inmate has a right under the Eighth Amendment to

be protect from attack or harm.
825 (1994).

Farmer v. Brennan, 511 U.S.

One does not have to await the consummation of

threaten injury to obtain preventive relief, only failing to act
despite knowledge of a risk of harm.

Id. at 842,845.

Prison staff and inmates who conspire to orchestrate an
attack in retaliation violate the Eighth Amendment.
Jones, 293 F3d 839, 845 (CA5 2002).

Cantu v.

Prison staff's duty to

protect inmates from attack/harm from an inmate applies equally
to take reasonable measures to guarantee the safety of the
inmate from prison staff,

A duty to intervene when there is

opportunity to do so must be made.
the blind eye are liable.

Staff that conspire or turn

Curry v. Scott, 249 F3d 493, 506

n.5 (CA6 2001); Smith v. Mensinger, 293 F3d 641, 650-52 (CA3
2002).
The Court should reverse and remand these claims back to
the district by ruling that each claim stated a claim for relief
under the Constitutions First, Eighth and Fourteenth Amendments.
Briscoe has presented issues of significant constitutional
and national importance as reason why this petition should be
granted.

It is so prayed.

37

Conclusion
The Petition for a Writ of Certiorari should be granted.
Res pi

■iJlver
ToCI

'y submitted,

S. Brisco.e', Jr. #A368171

2001 E. Central Avenue
Toledo, Ohio 43608
Petitoner, pro-se

Date:

28 U.S.C. § 1746 Declaration
I declare or certify, verify, state under penalty of perjury
that the foregoing is true and correct.

Executed on

The foregoing Writ of Certiorari was placed in the prison mail
for forwarding to the United States Supreme Court via firstclass prepaid mail.

368171

38

